@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 19-739
JULIUS BARBOUR, et al.,
Petitioners,
Vv.
HALLIBURTON COMPANY, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENTS
TRANSOCEAN HOLDINGS, L.L.C., TRITON ASSET LEASING GMBH, TRANSOCEAN
DEEPWATER, INC., AND TRANSOCEAN OFFSHORE DEEPWATER DRILLING, INC.’S
BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case

complies with the typeface requirement of Supretne Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 131

words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comin, Exp. September 6, 2023

 

GENERAL MOTARY-State of Nebraska Onda
Notary Public

Affiant

39613
